Oversight
Report
   REPORT ON QUALITY CONTROL REVIEW OF DELOITTE &
    TOUCHE LLP OFFICE OF MANAGEMENT AND BUDGET
   CIRCULAR A-133 AUDIT REPORT OF CARNEGIE MELLON
      UNIVERSITY, FISCAL YEAR ENDED JUNE 30, 1999


Report Number D-2002-6-002              December 11, 2001


             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this quality control review, visit the Inspector
  General, DoD, Home Page at www.dodig.osd.mil/audit/reports or contact the
  Secondary Reports Distribution Unit of the Audit Followup and Technical
  Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future reviews, contact the Audit Followup
  and Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
AICPA                 American Institute of Certified Public Accountants
D&T                   Deloitte & Touche LLP
OMB                   Office of Management and Budget
ONR                   Office of Naval Research
Finding A. Documentation of Audit Work. D&T personnel did not adequately
document the work they performed on internal controls or compliance requirements
related to the Research and Development major program cluster at Carnegie Mellon.
This condition occurred because D&T personnel were unaware of the more stringent
workpaper documentation requirements for OMB Circular A-133 audits, which states
that audits must be conducted in accordance with generally accepted government
auditing standards. As a result, we were unable to determine how the D&T auditors
reached their conclusions based on the working papers. Although we eventually
concluded that the controls were effective (through retesting and discussions with D&T
audit managers), a question remained regarding the thoroughness of D&T work.

Generally accepted government auditing standards state “working papers should contain
sufficient information to enable an experienced auditor having no previous connection
with the audit to ascertain from them the evidence that supports the auditors' significant
conclusions and judgments.” However, D&T personnel were not aware of the
documentation criteria related to government auditing. In addition, D&T audit
managers felt comfortable that personnel had performed the audit steps planned in the
audit program and believed that the working paper documentation was sufficient to
answer the audit steps.

During the review, we were unable to follow the documentation from detailed working
papers to the conclusions reached by the D&T auditors. D&T auditors did not
thoroughly explain the purpose or nature of testing on detailed working papers (linking
it back to the audit step[s] that the testing would answer). In addition, D&T auditors
did not provide the purpose, source, and conclusions reached by the auditors on each
detailed working paper. Because of these conditions, we needed to re-perform the tests
conducted by D&T and conduct extensive discussions with the D&T audit manager, to
reach the same conclusions as the auditors. As a result of discussions during the
review, D&T managers agreed to increase the documentation of audit steps and
working papers to comply with OMB Circular A-133 and generally accepted
government auditing standards.

Recommendation
A. We recommend that the Partner-in-Charge, Deloitte & Touche provide formal
training for personnel working on future Office of Management and Budget Circular
A-133 audits regarding documentation of working papers in accordance with generally
accepted government auditing standards.

Deloitte and Touche Comments. Although Deloitte & Touche believed its staff was
aware of more stringent documentation requirements, they agreed to reemphasize the
importance of working paper documentation in all future GAS audits (see page 11).
The proposed action is generally responsive to the intent of the recommendation.

Finding B. Reporting Audit Findings. D&T did not report Carnegie Mellon's
known noncompliance with property standards as an audit finding in the “Schedule of
Findings and Questioned Costs.” This occurred because D&T managers believed work
being performed by Carnegie Mellon mitigated the risk of the issue. As a result,

                                            2
________________________________________________________________________


Federal agencies providing awards to Carnegie Mellon may not be aware of a lack of
required inventories and problems with tracking asset location that may impact their
programs.

In an August 1999 report, the Office of Naval Research (ONR) cited Carnegie Mellon's
property system as unsatisfactory because of the continued existence of the following
two deficiencies first noted in a review conducted in FY 1996:

  •   failure to perform physical inventories every 2 years; and

  •   inaccurate property records.

Carnegie Mellon's proposed corrective actions in response to the original 1996 report
included a plan to complete an inventory by department over a 3-year cycle. ONR
approved this deviation from the requirements of OMB Circular A-110,
“Administrative Requirements for Grants and Agreements with Institutions of Higher
Education, Hospitals, and other Non-Profit Organizations.” OMB Circular A-110
requires that the recipient (Carnegie Mellon) perform a physical inventory of equipment
acquired under Federal awards at least once every 2 years. However, the ONR August
1999 report stated that the physical inventory was still not completed, with only
approximately 50 percent of Federal government titled items inventoried. ONR also
reported continued inaccurate property records and noted that this was likely a result of
the degree of completion of the inventory. The report noted that Carnegie Mellon
appeared to be aggressively working to complete the inventory and restated its prior
recommendation for timely completion of the inventory.

In addition, the Carnegie Mellon internal audit department had similar findings in a
review of the Materials Science & Engineering Department in September 1999. The
report noted that internal controls over administration of property needed to be
strengthened.

D&T working papers from the 1999 OMB Circular A-133 audit document their review
of the ONR and internal audit reports, Carnegie Mellon's corrective action plan, and
D&T testing of the issues. D&T audit procedures included discussions with the
Property and Space Administrator in charge of overseeing the property inventory count
and a review of selected departmental property audits. Although the working papers
document the inventory at 50 percent completion, D&T auditors concluded that the
Carnegie Mellon property system was in compliance with OMB Circular A-110
standards.
We discussed this issue with the D&T audit managers. D&T managers did not believe
it was necessary to report the property system findings since Carnegie Mellon was
actively addressing the fixed asset management issues and D&T audit tests did not
disclose any significant exceptions. However, without the disclosure of the finding,
Federal agencies providing awards to Carnegie Mellon may not be aware of a lack of
required inventories and problems with tracking asset location that may impact their
programs.


                                            3
OMB Circular A-133 requires the auditor to report as audit findings reportable
conditions in internal control over major programs and material noncompliance with the
provisions of laws, regulations, contracts or grant agreements related to major
programs. The determination to report an audit finding is made by assessing the
significance of the deficiency in internal control, or the noncompliance, in relation to a
compliance requirement (that is, equipment and real property management) or an audit
objective identified in the OMB Circular A-133 Compliance Supplement. Because of
Carnegie Mellon's continued questionable internal controls, including the lack of a
completed physical inventory and inaccurate property records, this noncompliance
would be material in relation to the audit objective, and should have been reported as an
audit finding.

Based on our Quality Control Review, we do not believe that the results of the audit
were questionable. D&T auditors considered the ONR findings in planning and
performing their audit. In addition, we were advised by the ONR that as of
March 2001, they have confirmed that Carnegie Mellon is now in compliance with
the property standard requirements. D&T management was responsive to our
recommendation that all findings should be included in the OMB Circular A-133
Schedule of Findings and Questioned Costs.

Recommendation

B. We recommend that the Partner-in-Charge, Deloitte & Touche ensure that future
Office of Management and Budget Circular A-133 audit reports include all findings that
meet the Office of Management and Budget Circular A-133 reporting criteria in the
Schedule of Findings and Questioned Costs.

Deloitte & Touche Comments. Management concurred with the recommendation.
Deloitte & Touche personnel agreed to reemphasize the importance of reporting all
instances of noncompliance and that the status of all prior findings are appropriately
reported and disclosed (See page 11).

Finding C. Presentation of Pass-Through Expenditures. Carnegie Mellon did not
present the pass-through awards in the Schedule of Federal Expenditures in accordance
with OMB Circular A-133. This condition occurred because Carnegie Mellon was not
aware of the specific pass-through presentation requirements of OMB Circular A-133.
As a result, non-Federal entities may not be able to identify from the OMB Circular
A-133 report the amount of Federal awards passed-through to Carnegie Mellon.

OMB Circular A-133 defines pass-through entities as non-Federal entities that provide a
Federal award to a subrecipient to carry out a Federal program. OMB Circular A-133
requires the auditee Carnegie Mellon to prepare a schedule of expenditures of Federal
awards for the period covered by the auditee’s financial statements. For Federal
awards received as a subrecipient, the name of the pass-through entity and identifying
number assigned by the pass-through entity must be included. In addition, the
American Institute of Certified Public Accountants (AICPA) requires that the schedule
of expenditures of Federal awards identify the total amount provided to subrecipients by
pass-through entities. Non-Federal entities need to rely on subrecipient OMB
Circular A-133 audit reports as part of their subrecipient monitoring responsibilities.
                                            4
Appendix A. Quality Control Review Process

Scope and Methodology
We conducted a quality control review of the Deloitte & Touche LLP audit of Carnegie
Mellon University for the fiscal year ended June 30, 1999, and the resulting reporting
submission to the Single Audit Clearinghouse dated May 16, 2000 (Project No. D2001-
OA-0077). We performed our review using the 1999 edition of the “Uniform Quality
Control Guide for the A-133 Audits” (the Guide). The Guide applies to any single
audit that is subject to the requirements of OMB Circular A-133, revised June 24,
1997. The Guide is the approved checklist of the President’s Council on Integrity and
Efficiency for performing the quality control review procedures. Our review was
conducted from February 2001 through November 2001 and covered
areas related to the financial statements and the one major program, research and
development. The project was suspended from June 28, 2001 until
November 21, 2001. As the cognizant audit agency for Carnegie Mellon, we
focused our review on the following qualitative aspects of the single audit:


   •   Qualifications of auditors,
   •   Independence,
   •   Due professional care,
   •   Quality control,
   •   Planning and supervision,
   •   Internal controls and compliance testing,
   •   Schedule of Expenditures of Federal Awards,
   •   Schedule of Findings and Questioned Costs, and
   •   Data Collection Form.

In conducting the review, we reviewed all working papers prepared by the D&T
auditors, discussed the audit with the auditor and Carnegie Mellon cognizant personnel,
and retested selected audit procedures.




                                           6
________________________________________________________________________


Prior Quality Control Reviews

Since 1997, we have issued three quality control reviews of Deloitte & Touche LLP.
Copies of these reports may be obtained by accessing www.dodig.osd.mil.

Single Audit Requirements
The OMB Circular A-133 establishes policies to guide implementation of the Single
Audit Act 1984 (Public Law 98-502) and the Amendments of 1996 and provides an
administrative foundation for uniform audit requirements for non-Federal entities that
administer Federal awards. In addition, OMB Circular A-133 serves to ensure that
Federal departments and agencies rely on and use the audit work to the maximum
extent practicable. To meet the intent of the law and OMB Circular A-133, a complete
reporting package on each single audit is submitted to the Single Audit Clearinghouse
from the auditee (non-Federal entity) that includes the following:

   •   Data collection form certified by the auditee that the audit was completed in
       accordance with the OMB Circular A-133;

   •   Financial statements and related opinion;

   •   Schedule of Expenditures of Federal Awards and related opinion;

   •   Report on internal controls over compliance and on compliance with laws,
       regulations, and the provisions of contracts or grant agreements, and related
       opinion on compliance of major programs; and

   •   Schedule of Findings and Questioned Costs.

OMB also issues a Compliance Supplement (the Supplement). The Supplement assists
the auditors in determining the audit scope for OMB Circular A-133 requirements for
review of internal control. For each compliance requirement, the Supplement describes
the objectives of internal control and certain characteristics that when present and
operating effectively may ensure compliance with program requirements. The
Supplement gives examples of the common characteristics for the five components of
internal control (control environment, risk assessment, control activities, information
and communication, and monitoring) for each compliance requirement. The following
14 compliance requirements applicable to the various Federal programs are identified in
the Supplement:




                                           7
   A.      Activities Allowed/Unallowed*          H.   Period of Availability of Federal Funds*

   B.      Allowable Costs/Cost Principles*       I.   Procurement and Suspension and Debarment*

   C.      Cash Management*                       J.   Program Income*

   D.      Davis-Bacon Act*                       K.   Real Property Acquisition/Relocation
                                                       Assistance*
   E.      Eligibility*
                                                  L.   Reporting*
   F.      Equipment and Real Property
           Management*                            M.   Subrecipient Monitoring*

   G.      Matching, Level of Effort,             N.   Special Tests and Provisions*
           Earmarking*


* Applicable at Carnegie Mellon University
during FY 1999 OMB Circular A-133 audit.




                                              8
Appendix B. Report Distribution

Mr. William Laird, Director of Finance       Department of the Air Force
Carnegie Mellon University                   Office of the Assistant Secretary
5000 Forbes Avenue                             (Financial Management &
Pittsburgh, Pennsylvania 15213
                                               Comptroller)
Mr. Robert Goetz, Partner-in-Charge          Attn: Director, Audit Liaison
Deloitte & Touche LLP                          (SAF/FMPF)
2500 One PPG Place                           1130 Air Force Pentagon, Room 4D212
Pittsburgh, Pennsylvania 15222-5421          Washington, DC 20330-1130
Director
Defense Contract Management Agency           Naval Inspector General
8725 John J. Kingman Road,                   Attn: Captain Robert Jackson, Director
Suite 4539                                   Audit/Cost Management Division (N4)
Fort Belvoir, Virginia 22060-3060            1014 N Street SE, Suite 100
                                             Washington, DC 20374-5006
Director, Defense Procurement
Office of the Under Secretary of
  Defense for Acquisition, Technology,       Department of the Army
  and Logistics                              Deputy Assistant Secretary of the Army
3060 Defense Pentagon 3E1044                   for Financial Management &
Washington, DC 20301-3060                      Comptroller
                                             Financial and Accounting Oversight
Chief, Office of Naval Research                Division
800 North Quincy Street                      109 Army Pentagon, Room 3E588
Arlington, Virginia 22207-5660               Washington, DC 20310-0109

Defense Advanced Research Projects           Regional Inspector General
  Agency                                     U.S. Department of Agriculture
Director, Contracts Management Office        5601 Sunnyside Avenue
Attn: Mr. R. Timothy Arnold                  Stop 5300
3701 North Fairfax Drive                     Beltsville, Maryland 20705-5300
Arlington, Virginia 22203-1714
                                             Regional Inspector General
                                             U.S. Department of Commerce
                                             401 West Peachtree Street, NW
                                             Suite 2742
                                             Atlanta, Georgia 30308




                                         9
Appendix B. Report Distribution (cont’d)

Director, Non-Federal Audits            NASA Office of Inspector General
Office of Inspector General             NASA Headquarters, Code W
U.S. Department of Education            300 E Street, SW, Room 8T79
Wanamaker Building                      Washington, DC 20546-0001
1000 Penn Square East, Suite 502
Philadelphia, Pennsylvania 19107        Office of Inspector General
                                        National Endowment for the Humanities
U.S. Department of Energy               1100 Pennsylvania Avenue, NW,
Office of Inspector General             Room 419
Attn: Single Audit Contact              Washington, DC 20506
1000 Independence Avenue, SW
IG-33, Room 5A-193                      Office of Inspector General
Washington, DC 20585                    National Science Foundation
                                        Assistant Inspector General for Audit
Non-Federal Audits                      4201 Wilson Boulevard, Suite 1135
HHS OIG National External Audit         Arlington, Virginia 22203
  Resources
Lucas Place
323 West 8th Street, Room 514
Kansas City, Missouri 64105

National Audit Managers
U.S. Department of Justice
Philadelphia Regional Audit Office
701 Market Street, Suite 201
Philadelphia, Pennsylvania 19106

National Single Audit Coordinator
Office of Inspector General
Mid-Atlantic Audit Division
U.S. Environmental Protection Agency
Room 3AI00
1630 Arch Street, 3rd Floor
Philadelphia, Pennsylvania 19103-2029



                                          10
Deloitte & Touche LLP Comments




                     11
12
Carnegie Mellon University Comments




                        13
Review Team Members
The Deputy Assistant Inspector General for Audit Policy and Oversight, Office of the
Assistant Inspector General for Auditing, DoD, prepared this report. Personnel of the
Office of the Inspector General, DoD, who contributed to the report, are listed below.

Wayne C. Berry
Martin T. Heacock
Laura A. Rainey
Ashley A. Harris
Krista S. Gordon
